                                                                          EMPLOYMENT AND TRAINING
U.S. Department of Labor                                                  ADMINISTRATION

                                                General—Office of
                                      Inspector General—Office    Audit
                                                               of Audit




                                                                          THE STATE OF TEXAS HAS EFFECTIVELY
                                                                          IMPLEMENTED THE ONE-STOP SEAMLESS
                                                                          SERVICE CONCEPT
                                  of Inspector
                           Office of
                           Office




                                                                                             Date Issued: September 30, 2005
                                                                                             Report Number: 06-05-007-03-390
U.S. Department of Labor                               SEPTEMPER 2005
Office of Inspector General
Office of Audit                                        The State of Texas Has Effectively
                                                       Implemented the One-Stop Seamless
BRIEFLY…                                               Service Concept
Highlights of Report Number: 06-05-007-03-390, to      WHAT OIG FOUND
the Assistant Secretary for Employment and Training
Administration.
                                                       We found that the State of Texas has effectively
                                                       implemented the seamless One-Stop vision.
WHY READ THE REPORT
The Workforce Investment Act of 1998 mandated          The State was an early implementer of the One-Stop
the One-Stop delivery system. It requires states to    system, and they established an organizational
consolidate their predecessor Wagner-Peyser core       structure that supports the seamless service
employment services (ES) with other job training       concept. The Texas Workforce Commission (TWC)
programs to form one seamless service delivery         effectively coordinates a cohesive workforce system.
system for its customers.                              The TWC coordinated the oversight and
                                                       administration of the One-Stop system.
This includes having one overall application process   The TWC created a common framework by
with comprehensive services available on site with     providing guidance through Statewide polices and
minimal referrals. However, the law provides           procedure.
flexibility in how the states and local areas
implement this vision, which allows them to address    The State has developed a statewide common
issues that may be unique to their area.               intake system for the One-Stop service delivery
                                                       system.
WHY OIG DID THE AUDIT
The Department of Labor’s (DOL) Employment and         One-Stop system partners established memoranda
Training Administration (ETA) views the One-Stop       of understanding (MOUs) and contracts to support
system as the cornerstone of the new workforce         the One-Stop concept. The TWC has established
investment system, which unifies numerous training,    MOUs with other appropriate State agencies in order
education, and employment programs into a single,      to facilitate coordination between the various
customer-friendly system in each community. ETA        required partner programs at the state level. TWC
envisions one overall service system where One-        established agreements with local boards for
Stop truly means one stop.                             coordination of One-Stop services. Local workforce
                                                       boards established MOUs with required and optional
The OIG conducted a performance audit of the State     partners, though the level and degree of detail
of Texas’ One-Stop system to determine if the          varied.
seamless vision was implemented within the State of
Texas. Our audit included three One-Stops within       WHAT OIG RECOMMENDED
the State of Texas, and covered the One-Stop           We had no recommendations for the Assistant
organizational structure, management information       Secretary for Employment and Training.
system integration, and memoranda of
understanding, implemented subsequent to July 1,       The results of this report are included in a summary
2000.                                                  report that consolidates the results, findings, and
                                                       recommendations of the four states audited during
READ THE FULL REPORT                                   this project.
To view the report, including the scope,
methodology, and full agency response, go to:          The State of Texas concurred with the results of our
                                                       audit.
http://www.oig.dol.gov/public/reports/oa/2005/06-
05-007-03-390.pdf
            The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




Table of Contents
                                                                                                                        PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

   1. The State implemented a One-Stop organizational structure that supports
      the seamless system concept ............................................................................. 6

   2. The State developed one overall application process for One-Stop system
      partners ................................................................................................................. 9

   3. The State established MOUs and contracts with the local level to support the
      One-Stop Concept .............................................................................................. 10


APPENDICES ............................................................................................................... 15

   Appendix A - Background....................................................................................... 17

   Appendix B - Objectives, Scope, Methodology, and Criteria............................... 19

   Appendix C - Acronyms and Abbreviations .......................................................... 23

   Appendix D - Agency Response to Draft Report .................................................. 25




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
          The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept



                        Executive Summary
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. It
requires states to consolidate their predecessor Wagner-Peyser core employment
services (ES) with other job training programs to form one seamless service delivery
system for its customers. The Department of Labor’s (DOL) Employment and Training
Administration (ETA) views the One-Stop system as the cornerstone of the new
workforce investment system, which unifies numerous training, education, and
employment programs into a single, customer-friendly system in each community. ETA
envisions one overall service system where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. However, the law provides flexibility in how the states
and local areas implement this vision, which allows them to address issues that may be
unique to their area.

Because of the flexibility the law allows, states have implemented different workforce
structures. For example, the State of Texas established the Texas Workforce
Commission (TWC), merging 28 individual workforce programs from 10 different
agencies into one new agency.

To determine how the seamless service concept was implemented within the State of
Texas, we performed audit work at the TWC and at three One-Stop centers. We
focused our objectives to answer the following questions:

   1. Does the One-Stop organizational structure support the seamless system
      Concept?
   2. Has one overall application process been established to support the One-Stop
      service delivery system?
   3. Are agreements established between partners to implement a system that
      supports the One-Stop concept?

Results

Based on our findings, the State of Texas has effectively implemented the seamless
vision. Specifically, at the three centers audited, we found:

   1. The State implemented a One-Stop organizational structure that supports the
      seamless system concept.
         a. The TWC coordinated the oversight and administration of the One-Stop
            system.
         b. The TWC created a common framework by providing guidance through
            Statewide polices and procedures.




U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


          c. Local Boards contracted out center operations to enable the boards to
             focus on service delivery systems. Local Boards organized centers along
             program or functional lines.

    2. The State developed one overall application process for One-Stop system
       partners.

    3. One-Stop system partners established memoranda of understanding (MOUs)
       and contracts to support the One-Stop concept.

          a. The TWC has established MOUs with other appropriate State agencies in
             order to facilitate coordination between the various required partner
             programs at the state level.
          b. TWC established agreements with local boards for coordination of One-
             Stop services.
          c. Local workforce boards established MOUs with required and optional
             partners, though the level and degree of detail varied.

Agency Response

The State of Texas concurred with the audit results.




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary
 for Employment and Training


The Workforce Investment Act of 1998 (hereinafter referred to as the Act) mandated the
One-Stop delivery system. It requires states to consolidate their predecessor Wagner-
Peyser core employment services (ES) with other job training programs to form one
seamless service delivery system for its customers. ETA envisions one overall service
system where One-Stop truly means one stop. This includes having one overall
application process with comprehensive services available on site with minimal
referrals. However, the law provides flexibility in how the states and local areas
implement this vision.

The seven guiding principles of the Act are:

    •   streamlined services,
    •   empowering individuals,
    •   universal access,
    •   increased accountability,
    •   strong role for local workforce investment boards and the private sector,
    •   state and local flexibility, and
    •   improved youth programs.

The audit objective was to determine if an environment conducive to the seamless
service concept has been implemented in the State of Texas. In order to accomplish
this, our audit focused on the principles of streamlined services, universal access, and
state and local flexibility, by reviewing the following elements:

   •    organizational structure
   •    management information system (MIS)
   •    memoranda of understanding (MOUs)

In order to assess the elements listed above, we visited three One-Stop centers in
Texas. The centers selected included an urban, suburban, and rural center, varying in
size and demographics.

U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Objective 1: Does the One-Stop organizational structure support the seamless
system concept?

Results

The State implemented a One-Stop organizational structure that supports the
seamless system concept.

The underlying notion of the One-Stop concept is to coordinate programs, services, and
governance structures so customers have access to a seamless system of workforce
services. The State of Texas established a One-Stop organizational structure to
coordinate programs and services.

At the centers we audited, the State’s One-Stop system was effective. Major features of
their One-Stop structure include:

    •   Administration is under a single entity.
    •   Common guidance is provided through statewide policy and procedures.
    •   Day-to-day center operations are contracted out.
    •   Two organizational methods provide flexibility.

    A. The Texas Workforce Commission (TWC) coordinates the oversight and
       administration of the One-Stop system.

The Texas Legislature established the TWC, merging 28 individual workforce programs
from 10 different agencies into one new agency. The TWC is charged with planning
and delivering workforce services to meet the needs of Texas businesses, workers, and
communities through an integrated, locally controlled delivery system.

The TWC allocates Federal dollars through annual contracts with the Local Workforce
Investment Boards (hereafter called Boards) to provide services in five programs:

    •   Temporary Assistance for Needy Families (TANF)
    •   Workforce Investment Act (WIA)
    •   Food Stamp Employment and Training (FS E&T)
    •   Child Care and Development Fund (CCDF)
    •   Welfare-to-Work (WtW)

Twenty-eight employer-led Boards plan for, provide oversight to, and evaluate the local
workforce centers.




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
           The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


   B. TWC creates a common framework by providing guidance through
      Statewide polices and procedures.

The TWC provides guidance to establish a framework that supports and promotes
integrating programs and creates a seamless service delivery system. This framework
provides enough guidance to ensure local boards institute provisions to further the One-
Stop concept, yet is flexible enough to allow the local boards the freedom to design how
they will meet the goal of seamless service delivery. Flexibility allows the respective
boards to address the issues that may be unique to their area. Center operators
embrace the flexibility they are afforded, while appreciating the general framework from
which they can operate.

At the three centers we reviewed, this framework has been expanded to provide a
streamlined process for serving their respective clientele. Centers have issued
guidelines/guidance to address specific issues such as customer flow, staff
responsibilities, and measuring customer satisfaction.

At the centers, customers flow through:

       •    basic services,
       •    intensive services, and
       •    training/education services.

This three-tiered approach, as outlined in the Act, provides a streamlined customer
focused method for delivering services. At each level services become more tailored to
the individual, thereby allowing the customer to receive optimal benefit. This approach
also maximizes center resources.

   C. The Boards contract out center operations to enable them to focus on
      service delivery systems.

Local Boards contracted out the One-Stop center operations, allowing them to develop,
monitor, and maintain an efficient One-Stop service delivery system, while the One-Stop
operators focus on providing universal access to programs and services. The Boards
are statutorily prohibited from directly providing core or intensive services, except in
limited circumstances, and therefore, must designate an outside entity to operate the
One-Stop centers.

With the Boards removed from the center day-to-day operations, they can assess and
direct the effectiveness of delivery systems without being entrenched in individual
program operations, thereby meeting the Act’s intent. According to one of the seven
guiding principles outlined in 20 CFR Part 652, August 11, 2000, pg. 49294 (Strong
Role for the Local Workforce Investment Boards in the Private Sector), the Boards
should be:




U.S. Department of Labor—Office of Inspector General                                         7
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


       . . . business led boards, acting as boards of directors, focusing on
       strategic planning, policy development and oversight of the local workforce
       development system.

    D. Boards organize centers along program or functional lines.

The centers showed two methods of organizational structure to provide clients with a
seamless service delivery environment. Both structures use multiple access points into
the system.

    1. Functional line (using Personal Service Representatives (PSRs). At one center,
       the use of PSRs ensures that clients deal with only one person, regardless of the
       program they enter. All staff process clients for any service they may need from
       an array of agencies. This reduces repetitive administrative efforts and case
       management, freeing the PSR to provide services in a seamless and
       comprehensive manner.

    2. Program line (staff focus on their specific program). At the other two centers,
       staff undergoes a detailed and comprehensive training program before they are
       allowed to work with clients. Consequently, staff is aware of other available
       services in order to meet all the needs of their clients. Clients are referred to the
       appropriate program(s) for assistance after they accessed the core services
       available and were assessed for program eligibility. This program line
       organization does not prevent co-enrollment with programs that clients may need
       in order to obtain all needed services.

The Act requires client access to an array of services available through the workforce
system. This access falls under the guiding principle of Universal Access, which states:

       Any individual will have access to the One-Stop system, and to core
       employment related services. . . .

This access is described as a “no wrong door” policy, meaning that regardless of the
program initiating services, clients will receive the appropriate mix of services to obtain
success. Having similar results from two organizational structures confirms how local
board flexibility can meet the individual needs of the local population.

Agency Response

The State concurs with the results.




8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
          The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Objective 2: Has one overall application process been established to support the
One-Stop service delivery system?

Results

The State developed one overall application process for One-Stop system
partners.

The DOL, through WIA regulations, envisions a variety of programs using common
intake, case management and job development systems to take full advantage of the
One-Stops’ potential for efficiency and effectiveness. The State developed The
Workforce Information System of Texas (TWIST) to provide an automated statewide
system, with a single point of data entry and a central repository for customer
information.

The TWIST allows One-Stop partners to share a common intake system. This
automated system also allows One-Stop centers to share data between partner
programs.

TWIST system features that encourage both common intake and data sharing include:

   •   A menu driven interface, allowing for easy customer processing. Various
       screens provide information regarding intake, eligibility, program detail,
       assessment, service tracking, counselor notes, TANF history, and FSE&T
       history.

   •   Information contained in the intake screen is created in one of two ways:
           o users of the TWIST system can create intake records; or
           o initial intake records can be automatically created when new customer
             information is interfaced nightly from other partner programs such as
             those administered by the Texas Department of Human Services.

   •   From the common intake tab, eligibility and funding source is determined.

The TWIST also links to “WorkInTexas” (WIT), which is the statewide system for
accessing and tracking client core services. The WIT is a web-based system to provide
universal access for facilitating core employment-related services, such as job market
information, resume’ preparation, and job matching. The WIT uploads to the TWIST,
keeping the TWIST system updated for services provided to clients.

Our review at the local level supports the supposition that common intake is occurring.
Common application forms help regulate the intake process and provide a consistent
method for initial assessment of the customer’s needs. One center has gone even
further and is collecting data regarding the types of services that are requested.


U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Although the Act does not require this information be tracked, the center finds this
information useful for studying trends in the types of clients served.

Agency Response

The State concurs with the results.


Objective 3: Are agreements established between partners to implement a
system that supports the One-Stop concept?

Results

The State established MOUs and contracts with the local level to support the One-
Stop concept.

TWC has established MOUs with partner agencies at the State level, created
agreements with local boards, who then established MOUs with their local partners.
These MOUs and agreements are used to establish relationships and define
responsibilities in the One-Stop system. The State’s WIA Strategic Plan states “ . . . the
Board contract with the One-Stop Operator serves as the MOU” addressing partner
program coordination. WIA encourages partner agencies to use MOUs to establish and
define working relationships in the One-Stop center’s delivery of services.

     A. The TWC established MOUs with other appropriate State agencies to
        facilitate coordination between the various required partner programs at
        the State level.

Although not required at the State level, TWC has established non-financial MOUs with
State-level agencies, such as the Texas Rehabilitation Commission and the Texas
Health and Human Services Commission. These State-level agreements create an
environment that encourages, supports and facilitates cooperation and direction for
One-Stop operations by laying out the terms and mutual responsibilities of TWC and
each respective party.

     B. The TWC established agreements with the local Boards to coordinate One-
        Stop services.

TWC’s agreements with the local Boards are intended to create an environment that
encourages, supports, and facilitates cooperation and direction for One-Stop
operations. These agreements address:

     •   coordination of services,
     •   referral systems, and
     •   cost allocation.


10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Specific sections address elements such as performance, administrative requirements,
and partnership goals.

The agreements impose on each Board to "establish . . . contracts and memoranda of
understanding (as required by Section 121(c) of the WIA) to document partnerships,
relationships, duties and cost sharing with 'One-Stop center' partners."

   C. Local Boards established MOUs with required and optional partners
      though the level and degree of detail varied.

According to the Act, Chapter 3, Section 121(c), the local Board, with the agreement of
the chief elected official, shall develop and enter into a memorandum of understanding
(between the local Board and the One-Stop partners) . . . Each memorandum of
understanding shall contain:

       (i) the services to be provided through the One-Stop delivery system;
       (ii) how the costs of such services and the operating costs of the system will be
       funded;
       (iii) methods for referral of individuals between the One-Stop operator and the
       One-Stop partners, for the appropriate services and activities; and
       (iv) the duration of the memorandum and the procedures for amending the
       memorandum during the term of the memorandum.

ETA cited the need for strong MOUs in its “Final Rule” implementing WIA. 20 CFR Part
662 et al. provides that “the MOU . . . be the vehicle for addressing the specified issues
of services, costs and referrals. . . .” Additionally, MOUs are the “vehicle through which
the partner’s role in the local system is detailed.” The regulations also cite the need to
“ . . . promote strong MOUs” and how MOUs are the “ . . . primary means for
coordinating the services of the One-Stop partners [and] are the foundation of the entire
workforce investment system.”

The Boards, for the three centers reviewed, entered into MOUs with their center
operators and respective One-Stop partners in each local area. However, a wide
degree of difference of structure and detail was evident in the agreements both between
the centers and within each workforce center. We deemed the first three items from the
Act, Chapter 3, Section 121(c) (cited above) to be of most significance to ensure a clear
understanding of how the center operator and required/optional partner programs
agreed to provide services.

       (1) Services Provided

MOUs define what services are to be provided, yet some lack detail. ETA’s final rule
states the MOU is the primary means of coordinating services with One-Stop partners.
Services described in the MOUs varied among the centers and within each center.




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


In center one, the MOUs outlined in detail the services to be provided by each program.
The Board has agreements in place with several entities, which cover the program’s
requirements, at a minimum. All the MOUs, with one exception, are structured and
formatted similarly and detail the type and scope of services to be provided.

Conversely, at center two, most agreements lack specificity in describing the types of
services to be provided. Some agreements only reference the authorizing legislation,
while others provide generalized requirements, such as requiring "comprehensive and
specialized services of customer needs" or "referral to training services as appropriate."

At the center three, the MOUs varied from being very specific to generalized. The
MOUs apply very similar wording, regardless of the diverseness of the entities. The
generalized MOUs tended to be goal oriented, utilizing words such as “coordinate,”
“explore,” or “promote.”

       (2) How Costs Are Funded

Most non-operator MOUs at One-Stop centers briefly address cost funding of services
since they are largely non-financial arrangements. Each party agrees to perform
services strictly within their operational parameters, with no cost sharing involved.
However, each workforce center’s operator MOU addresses costs more significantly.

       (3) Methods of Referral

The MOUs’ referral methods range from very specific to vague. ETA’s guidance is that
“the MOU . . . be the vehicle for addressing the specified issues of services, costs and
referrals.” Yet we found distinct differences in how centers addressed referrals.

At center one, the agreements, for the most part, specify exactly how referrals will be
made. These provisions include, but are not limited to assisting job seekers in: finding
suitable employment by referral to job openings or by job department, providing labor
market information, providing job tips and referring job seekers to appropriate
educational or training services or support services. However, many agreements do not
address how to follow up on referrals.

At center two, most agreements lack specificity in describing the referral process.
Some agreements merely referenced the authorizing legislation, while others provide
generalized requirements, such as requiring "comprehensive and specialized services
of customer needs" or "referral to training services as appropriate."

At center three, most of the MOUs were generalized regarding the referral process, and
only mention coordination in a goal-oriented fashion.




12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Agency Response

The State concurs with the results.

We conducted this audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




Elliot P. Lewis
March 31, 2005




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




Appendices




U.S. Department of Labor—Office of Inspector General                                  15
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


                                       APPENDIX A
BACKGROUND
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. The
Act requires states to consolidate their predecessor Wagner-Peyser core employment
services (job referrals, job bank, employment assistance) with other job training
programs (currently WIA Title I programs, Trade Adjustment Assistance, Veterans,
Older Worker, Housing and Urban Development employment and training, and
Community Development Block Grant employment and training) to form one seamless
service delivery system for its customers. Optional partners include the Temporary
Assistance for Needy Families program and Food Stamp employment, training, and
work programs.

The Act gives flexibility to the state and local governments to set up their One-Stops as
they determine will best serve their local clients. However, the following core services
must be made available: skills assessments, job search and placement assistance, job
statistics, performance and cost information on training providers, performance
information on One-Stop service delivery, accurate supportive service referrals,
information on filing UI claims, assistance in establishing eligibility for various financial
aid programs, and follow up services.

DOL states in the FY 2002 annual report:

       One-Stop Career Centers provide the focal point for meeting the
       challenges of a global economy. Through the One-Stop Centers,
       communities can build the local partnerships and organize the workforce
       development services that enable adults to acquire the skills needed for
       jobs and career changes that lead to high wages and for businesses to
       meet their ongoing recruitment and human services needs.

ETA envisions one overall service system, where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. This audit report provides ETA with information on how
the State operates its One-Stop system to carry out seamless service delivery.




U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
            The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


                           APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our audit objective was to determine if an environment conducive to the seamless
service concept was implemented in the State of Texas.

Scope

Our audit focused on the WIA principles of streamlined services, universal access, and
state and local flexibility. We determined these would best measure the State’s
implementation of their One-Stop system.

Our analysis of One-Stop center operations was based on the period July 1, 2000,
through April 1, 2004. The starting date of July 1, 2000, was selected for Texas
because they were an early implementer of the One-Stop system, based on the
beginning date of the WIA.

Sampling was performed in two stages – first states were selected, then One-Stop
centers within those states were selected. States were selected based on:

        •    TANF presence
        •    obtaining geographic dispersion
        •    population

Texas was selected as a TANF co-located state. We defined TANF co-located as:
those states that listed a significant number of centers (as compared to the total number
of centers in the state) with TANF eligibility and/or TANF employment and training
activities. Those states with TANF co-located centers were identified from a GAO
survey. We used TANF co-location as a selection factor based on its importance in the
GAO survey.

Centers were judgmentally selected based on funding, demographic, and geographic
factors. Centers are not identified due to the limited number included in the audit work,
and agreements with State and local staff to encourage an open dialogue.

We selected one center
   • to provide coverage of an urban area One-Stop center,
   • due to having the highest number of clients served for any Texas WDA, and
   • due to receiving the most funding of any Texas WDA.




U.S. Department of Labor—Office of Inspector General                                         19
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Another center was selected:

     •   to provide coverage of a suburban area One-Stop center, and
     •   due to its centralized location in the WDA.

The third center was selected:

     •   for review of a rural One-Stop center, and
     •   for having the lowest resident per square mile ratio for all Texas WDAs.

Evidence was obtained through interviewing State, local board, and center staff;
observations of operations; and documentation. Please see “Methodology” for work
performed.

Methodology

Work was performed at three levels.

     •   At the Federal level, we:
             o Interviewed key workforce staff to gain an understanding of the seamless
                service delivery concept; and
             o Obtained and reviewed laws, directives, and regulations pertaining to
                One-Stop operations; and

     •   At the State level, we:
             o Obtained and reviewed their annual WIA plan, 5-year strategic plan, and
                organizational chart;
             o Interviewed key staff responsible for One-Stop operations;
             o Obtained and reviewed policy directives issuing guidance regarding One-
                Stop operations;
             o Obtained and reviewed MOUs to determine coordination efforts; and
             o Discussed the state MIS structure to gain a general understanding of the
                client information flow; and

     •   At the One-Stop centers we:
             o Obtained and reviewed the local strategic plan, policies and procedures,
                and other documents to understand how One-Stop services are provided;
             o Interviewed center partners and performed a center walk-through to
                understand how the center operates;
             o Met with MIS staff to understand how One-Stop service data is reported
                and the systems used by the various programs at the center;
             o Obtained and reviewed MOUs for compliance with WIA requirements, and
                to further understand how the One-Stop center is intended to operate; and
             o Conclude whether mandatory and optional partners are served directly by
                the center or through referrals.


20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
           The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


Our audit work inherently included an assessment of the general internal controls used
in the general operation of Texas’ workforce system. Our audit procedures included an
assessment of the workforce system structure and operations.

Criteria

We used the following criteria to perform this audit:

   •   WIA Section 121. Establishment of One-Stop Delivery Activities
   •   WIA Final Rules (20 CFR Part 662) dated August 11, 2000
   •   H.R. 1261, “Workforce Reinvestment and Adult Education Act of 2003”
   •   S. 1627, “Workforce Investment Act Amendments of 2003”




U.S. Department of Labor—Office of Inspector General                                        21
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


                         APPENDIX C
ACRONYMS AND ABBREVIATIONS



   CCDF       Child Care Development Fund
   CDBG       Community Development Block Grant Program
   DOA        Department of Agriculture
   DOL        Department of Labor
   ES         Employment Services
   ETA        Employment and Training Administration
   FSE&T      Food Stamp Employment and Training
   GAO        Government Accounting Office
   HHS        Department of Health and Human Services
   HUD        Department of Housing and Urban Development
   MIS        Management Information System
   MOU        Memorandum of Understanding
   OIG        Office of Inspector General
   PSR        Personal Service Representatives
   TAA        Trade Adjustment Assistance
   TANF       Temporary Assistance to Needy Families
   TWC        Texas Workforce Commission
   TWIST      The Workforce Information System of Texas
   UI         Unemployment Insurance
   WIA        Workforce Investment Act
   WIT        WorkInTexas
   WtW        Welfare to Work




U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 06-05-007-03-390
The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-007-03-390
         The State of Texas Has Effectively Implemented the One-Stop Seamless Service Concept


                                                                              APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                      25
Report Number: 06-05-007-03-390
